<html>
<title> - THE NORTH KOREA SANCTIONS ENFORCEMENT ACT; THE HUMAN TRAFFICKING PREVENTION ACT; AND URGING THE GOVERNMENT OF AFGHANISTAN, FOLLOWING A SUCCESSFUL FIRST ROUND OF THE PRESIDENTIAL ELECTION ON APRIL 5, 2014, TO PURSUE A TRANSPARENT, CREDIBLE, AND INCLUSIVE RUN-OFF PRESIDENTIAL ELECTION ON JUNE 14, 2014, WHILE ENSURING THE SAFETY OF VOTERS, CANDIDATES, POLL WORKERS, AND ELECTION OBSERVERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   THE NORTH KOREA SANCTIONS ENFORCEMENT ACT; THE HUMAN TRAFFICKING 
 PREVENTION ACT; AND URGING THE GOVERNMENT OF AFGHANISTAN, FOLLOWING A 
 SUCCESSFUL FIRST ROUND OF THE PRESIDENTIAL ELECTION ON APRIL 5, 2014, 
 TO PURSUE A TRANSPARENT, CREDIBLE, AND INCLUSIVE RUN-OFF PRESIDENTIAL 
    ELECTION ON JUNE 14, 2014, WHILE ENSURING THE SAFETY OF VOTERS, 
            CANDIDATES, POLL WORKERS, AND ELECTION OBSERVERS

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                  H.R. 1771, H.R. 4449 and H. Res. 600

                               __________

                              MAY 29, 2014

                               __________

                           Serial No. 113-168

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                U.S. GOVERNMENT PRINTING OFFICE
88-105                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--5/20/14 
    noon deg.<greek-l>
SEAN DUFFY, Wisconsin--5/29/14 
    noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1771, To improve the enforcement of sanctions against the 
  Government of North Korea, and for other purposes..............     2
  Amendment in the nature of a substitute to H.R. 1771 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    67
      Amendment to the amendment in the nature of a substitute 
        offered by the Honorable Joaquin Castro, a Representative 
        in Congress from the State of Texas......................   114
      Amendment to the amendment in the nature of a substitute 
        offered by the Honorable Gerald E. Connolly, a 
        Representative in Congress from the Commonwealth of 
        Virginia.................................................   116
H.R. 4449, To amend the Trafficking Victims Protection Act of 
  2000 to expand the training for Federal Government personnel 
  related to trafficking in persons, and for other purposes......   117
H. Res. 600, Urging the Government of Afghanistan, following a 
  successful first round of the presidential election on April 5, 
  2014, to pursue a transparent, credible, and inclusive run-off 
  presidential election on June 14, 2014, while ensuring the 
  safety of voters, candidates, poll workers, and election 
  observers......................................................   120

                                APPENDIX

Markup notice....................................................   136
Markup minutes...................................................   137
Markup summary...................................................   139
The Honorable Gerald E. Connolly: Prepared statement.............   140
   THE NORTH KOREA SANCTIONS ENFORCEMENT ACT; THE HUMAN TRAFFICKING 
 PREVENTION ACT; AND URGING THE GOVERNMENT OF AFGHANISTAN, FOLLOWING A 
 SUCCESSFUL FIRST ROUND OF THE PRESIDENTIAL ELECTION ON APRIL 5, 2014, 
 TO PURSUE A TRANSPARENT, CREDIBLE, AND INCLUSIVE RUN-OFF PRESIDENTIAL 
    ELECTION ON JUNE 14, 2014, WHILE ENSURING THE SAFETY OF VOTERS, 
            CANDIDATES, POLL WORKERS, AND ELECTION OBSERVERS

                              ----------                              


                         THURSDAY, MAY 29, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. Pursuant 
to notice we meet today to mark up three measures. As member 
offices were notified yesterday, in view of the six concurrent 
committee markups taking place right now and the broad support 
for the items that we are considering here, the ranking member 
and I intend to consider en bloc all three measures together 
with the amendments that were provided to you previously.
    And so without objection, the following items which all 
members have before them are considered read and will be 
considered en bloc: H.R. 1771, the North Korea Sanctions 
Enforcement Act; Royce Amendment Number 29 in the Nature of a 
Substitute to that H.R. 1771; the Castro Second Degree 
Amendment Number 33 to H.R. 1771, expressing the sense of 
Congress on enforcement of relevant U.N. Security Council 
resolutions; the Connolly Second Degree Amendment Number 118 to 
H.R. 1771, requiring progress on reunification of separated 
Korean families including for Korean Americans; H.R. 4449, the 
Human Trafficking Prevention Act; and House Resolution 600 
regarding the upcoming presidential run-off election in 
Afghanistan.
    [The information referred to follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. So without objection all members may have 5 
days to submit statements for the record and any extraneous 
materials on today's items. And after opening remarks by myself 
and by the ranking member, Eliot Engel, I will be glad to 
recognize any member seeking recognition to speak on the en 
bloc items.
    So, beginning with our legislation on North Korea. That 
country remains one of the greatest threats due to the fact 
that they are developing weapons, and given the attitude of Kim 
Jong-un, one of the greatest threats not to just the United 
States but to our allies in Northeast Asia. The dictators of 
North Korea have repeatedly defied the international 
community's efforts to dismantle the nuclear program there.
    For years, North Korea has repeatedly dangled the promise 
of nuclear disarmament and dismantlement of their program in 
order to get existing sanctions eased. It has been 6 years 
since North Korea walked away from the negotiating table. The 
only thing that has changed since 2008 is that North Korea is 
closer to miniaturizing a nuclear warhead. Our North Korea 
policy, frankly, has been a bipartisan failure. Last year when 
we held a hearing on North Korea, it had just completed its 
third nuclear test and it had successfully launched a three-
stage intercontinental ballistic missile. Today, reports show 
that North Korea may soon conduct a fourth nuclear test. The 
administration says that its North Korea policy remains one of 
strategic patience.
    It is now time for Congress to lead by providing a clear 
legislative framework for sanctions to deprive Kim Jong-un of 
his ability to build nuclear weapons and to deprive him of his 
ability to repress and abuse the North Korean people. The North 
Korea Sanctions Enforcement Act seeks to apply the same type of 
pressure that the Treasury Department successfully applied in 
2005 when it targeted a small bank in Macau that was complicit 
in Pyongyang's counterfeiting. This was the bank of Delta Asia. 
This impact sent a ripple throughout the international 
financial system. If you will recall, 10 other banks complied 
once Banco Delta Asia was named, and as a consequence hard 
currency was cut off from North Korea. It seriously crimped the 
financing there. It stopped the ability for them to continue 
their build-up on their missile program. It made it impossible 
for the dictator there to pay his generals, which is never a 
good position for a dictator to be in. So this was one of the 
most effective steps we have taken against North Korea. It 
lasted in place, as I recall, about 8 months until the State 
Department brought significant pressure on Treasury, and this 
was under the Bush administration. State was interested in 
getting them lifted in the hopes that that would then get North 
Korea to the table, of course those negotiations proved to be 
fruitless. And we lost the ability at that time for the one 
thing that had held in check, the ability of the regime to 
continue on its program.
    This legislation we have with us today enables our 
Government to go after Kim Jong-un's illicit activities just 
like we went after organized crime in our own country. And it 
does so by interdicting shipments and disrupting the flow of 
money. And these sanctions target North Korea's money 
laundering. Just as in '05 it was a case of them counterfeiting 
$100 bills that got us to the point where sanctions were put in 
place, they are involved in money laundering, they are involved 
in counterfeiting. Of course they are involved in illicit 
smuggling and narcotics trafficking, for those who have watched 
the way in which the regime gets the lion's share of its hard 
currency. And there is a focus on North Korea's deplorable 
human rights violations in this legislation by targeting those 
officials responsible specifically for torture, for the gulags, 
for the extrajudicial killings that are sadly a fact of life in 
North Korea today. So this bipartisan piece of legislation has 
over 135 co-sponsors. It has garnered the support of 
humanitarian groups worldwide. And humanitarian aid is in no 
way affected, I should note for the members here.
    Second, we go to H.R. 4449, the Human Trafficking 
Prevention Act, and this seeks to ensure that U.S. personnel 
overseas are properly equipped to perceive and combat the 
scourge of human trafficking. Though current law requires that 
the State Department be trained to identify trafficking 
victims, it does not prescribe minimum training requirements, 
this bill does that.
    It adds some of these specifics which I think are 
important, a training course for Department personnel who deal 
with trafficking issues; trafficking briefings of all the 
ambassadors and deputy chiefs of mission before they depart to 
their posts so they know their responsibilities in this regard; 
annual reminders to personnel regarding key trafficking issues 
relating to their countries of focus. As you know we have made 
significant changes in the law and we want to make sure that 
they are enforcing it.
    So let me see if we have some additional notes here. 
Lastly, we have House Resolution 600, which urges the 
Government of Afghanistan to pursue a transparent, credible, 
and inclusive run-off Presidential election. I thank Mr. 
Grayson of Florida for his work on this timely resolution. Less 
than 2 months ago, Afghans overwhelmingly flocked to the polls 
to vote in Presidential and provisional elections.
    Now I think this is interesting. More than 7 million Afghan 
citizens cast a ballot during the first round of voting. That 
dwarfs the 4.5 million who voted in 2009. Although the April 
elections were a significant improvement, there is still 
progress to be made. Numerous electoral complaints led to the 
invalidation of votes in certain precincts, and just last week, 
Afghanistan's Independent Election Commission fired poll 
workers who were accused of voter fraud.
    This resolution urges the Government of Afghanistan to 
lessen the risk of fraud, to improve electoral transparency, to 
enhance security efforts, and increase voter participation 
during the upcoming run-off. Importantly, it also recognizes 
the sacrifices of the members of our armed forces and 
underscores that this election will contribute to the security 
and stability interests of both Afghanistan and of the United 
States. Afghans will finally select a successor to President 
Karzai on June the 14th. This election offers the chance for a 
fresh start with a new President and will allow Afghans to 
create a new and better era.
    We now go to Mr. Eliot Engel of New York for his opening 
comments, the ranking member.
    Mr. Engel. Mr. Chairman, thank you very much for holding 
this markup and for again the bipartisan collaboration on the 
three measures before us today. I would like to begin by 
commending you for your hard work on the North Korea Sanctions 
Enforcement Act, and for your longstanding commitment to 
address the grave threat posed by North Korea. I have been 
there twice. It doesn't make me an expert, but once you step 
foot in that country you realize something is terribly wrong.
    This bill would broaden U.S. sanctions against those 
helping sustain the regime in Pyongyang whose crimes against 
humanity the U.N. Human Rights Office says are, and I quote, 
``without parallel in the modern world.'' The North Korean 
regime is no stranger to sanctions, and it is clear why: 
Development of nuclear weapons, arms smuggling, transnational 
crime. To me, however, the brutal repression of the North 
Korean people, above all, warrants the enactment of this 
legislation.
    With this bill, Congress labels North Korea supporters as 
equally responsible for the horrors imposed by Kim Jong-un and 
his cronies on the North Korean people. This measure provides 
broader and tougher sanctions against North Korea's illicit 
activities. It gives the President flexibility to use the 
authorities in this act most effectively, and it carefully 
avoids any interference with the relief organizations providing 
food, medicine, and other humanitarian aid to the North Korean 
people.
    That is the irony. The United States has been the strongest 
and the greatest provider of food and medicine and other 
humanitarian aid to the North Korean people, while their brutal 
regime kills their own people and vilifies the United States. 
This bill is aimed at those few around the world who have 
chosen to remain morally blind to the crimes of the North 
Korean State. I urge all of our colleagues to support it.
    I want to commend our colleague, Mr. Connolly, who has been 
relentless in urging passage of this legislation. Indeed, he 
has been relentless in terms of everything involving the 
repression in North Korea. He was speaking to me about it, 
urging us to pass it, working with us on it to help stop the 
North Korean regime. And I want to publicly thank Mr. Connolly 
for his strong support and his help with this legislation.
    Mr. Chairman, I also support H.R. 4449, a bill introduced 
by my colleague from New York, Representative Sean Patrick 
Maloney. His legislation would expand training requirements for 
Federal Government<greek-l>al deg. personnel including 
employees of the State Department in identifying and preventing 
human trafficking.
    Human trafficking is modern-day slavery and its victims are 
robbed of their freedom and dignity. This crime spans the 
globe, driving profits of up to $32 billion a year. Best 
estimates tell us that as many as 27 million people are victims 
of human trafficking, many coerced into forced labor or 
commercial sex with no means of escape.
    One of the best ways to stop this crime is to make sure 
people know it when they see it. This bill would provide 
comprehensive mandatory training and special briefings on human 
trafficking for embassy reporting offices, regional bureaus' 
trafficking in persons coordinators and their superiors. It 
would also keep our State Department and other Federal 
Government personnel up to speed on the key problems, threats, 
methods, and warning signs of human trafficking, specific to 
their country or post.
    Mr. Chairman, we need to remember that people, not 
policies, are often the first line of defense against modern 
slavery, and this legislation will better prepare our diplomats 
and other public servants to spot this crime and take action as 
they serve at their diplomatic posts abroad. So I urge my 
colleagues to support this important legislation as well.
    And finally, I support a resolution on the Presidential 
election in Afghanistan that was introduced by our colleague, 
Representative Grayson. On April 5th, the people of Afghanistan 
went to the polls. We saw incredible courage that day from the 
candidates, the poll workers, and all those who have braved 
countless acts of violence and intimidation because they wanted 
their voices to be heard.
    Afghanistan's Independent Election Commission recently 
announced that none of the candidates garnered more than 50 
percent of the vote, so the Commission scheduled a run-off 
election for June 14th. The Afghans should be proud of their 
electoral system, civil society, media, and security forces for 
carrying out a successful first round of voting. Let me also 
congratulate the two leading vote recipients, Dr. Abdullah 
Abdullah, and Dr. Ashraf Ghani.
    This run-off represents another step forward for the people 
of Afghanistan. The future of their country is in their hands. 
And this resolution conveys, it is critical that this run-off 
election be credible, inclusive and transparent. The long-term 
stability, prosperity and security in Afghanistan depend on a 
democratically-elected government that reflects the will of the 
Afghan people. So I urge our colleagues to support this 
resolution as well.
    So Mr. Chairman, in closing I would like to again thank you 
for holding this markup and look forward to working with you to 
advance all three of these measures.
    Chairman Royce. Well, thank you, Mr. Engel. I will just ask 
if any of the members here seek recognition to speak on any of 
the en bloc amendments.
    Mr. Rohrabacher of California?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me thank you and the ranking member. Both you and the ranking 
member have provided such great leadership on this, and the 
bipartisan positive spirit that now, I think, dominates this 
committee reflects the hard work and spirit that both of you 
have given to your job. And you do work really hard at this 
job, I know. So first to commend both of you on this, and of 
course I am supportive of all three of the resolutions that 
have been brought before us.
    Just to take one note about North Korea. My father was a 
Korean War veteran, and over the years I had many talks with 
him about that particular conflict. I think what is interesting 
is that battle was 50 years ago. I remember, and I have 
mentioned that my father told me that he could not imagine that 
at that time when he was a young man in Korea that we would 
still have American military personnel stationed in Korea and 
doing a job, a military job in Korea. None of those guys who 
fought there felt that this was something that they were going 
to do to establish an American garrison overseas that would be 
there forever, and that their job forever would be, and 
America's job would be, to be deterring action, hostile action 
on that peninsula.
    I would suggest the reason they are still there is because 
we have not taken those steps that are necessary to bring about 
a change of regime, if you would like to say, or a change in 
the situation in North Korea. We in fact over the years have 
subsidized North Korea. And many of the people in the committee 
now don't remember those days, I do, in which we were spending 
millions of dollars providing food and energy to North Korea. 
That obviously has not worked.
    We need to understand that North Korea is a vicious 
dictatorship and we should be taking the steps that will permit 
in some way a unification of Korea but under democratic 
government. And that means that we should be supporting people 
who will have an impact in North Korea rather than just 
thinking we will keep our troops there for another 50 years.
    Today we celebrate the 25th anniversary of Tiananmen 
Square. And celebrate, we commemorate, I should say, 
commemorate Tiananmen Square. We didn't do the right thing 
there either, and we still have a dictatorship. It was a 
turning point 25 years ago that we could have sided with the 
people. And there was no price or penalty that the Chinese 
Communist regime has paid for this monstrous obliteration of 
freedom at Tiananmen Square 25 years ago.
    Let us note that behind Korea, behind the Government of 
Korea is the Government of China, the Communist Chinese Party 
of China. We as a country, we should do more than just think 
that our policies need to focus on providing a garrison at a 
point in the world that might be some kind of an area, a 
volatile area like Korea.
    But instead, we should be thinking about the power of 
liberty and justice and democracy and the ideals that our 
country was founded upon, and start finding people in those 
other countries who will ally ourselves with those values and 
start supporting them. That is the way we can bring about real 
change and not have to have our troops garrisoning various 
parts of the world.
    We appreciate again your resolutions on Korea, and Mr. 
Chairman, you have taken such a heartfelt position on this 
human trafficking, and we know that, and then again 
Afghanistan. Thank you for those three pieces of hard work on 
your and Mr. Engel's<greek-l>Eliot's (sic) deg. part today.
    Chairman Royce. Well, thank you. Like Mr. Engel, I have 
been in North Korea, and our hearts go out to the people of 
North Korea in terms of what they have suffered through for the 
last three generations now of the dictatorship there. And our 
hope is that that situation will evolve into one where they 
have some modicum of human rights, some freedoms, some liberty.
    And it is our hope that between this legislation and what 
we passed a few weeks ago with respect to the revamping of the 
Broadcasting Board of Governors that we might be able to better 
broadcast into North Korea the types of messaging which might 
lead to the pressures for a respect for human rights in that 
country.
    The result of how one treats one's own people is also 
indicative of how a regime will treat its neighbors, and that 
is one of the great problems for North Korea with respect to 
the horror of the human rights condition there. For those of us 
who have talked to those who have escaped out of the gulags, it 
is a numbing experience to hear people recount to you the types 
of stories we heard about concentration camps generations ago 
during the time of the Second World War and predating the War, 
to know that that happens today on a daily basis in North 
Korea, I think, is a heavy weight for all of us in the 
international community who feel some responsibility to try to 
do something about it to push North Korea in the right 
direction.
    We now go to Mr. Albio Sires from New Jersey.
    Mr. Sires. Mr. Chairman, thank you very much. I just want 
to express how refreshing it is to have a chairman and a 
ranking member that work so well together, and all the members. 
This is truly an atmosphere of bi-partisanship especially 
against such a leader in the world. And I want to commend the 
members participating. And all the amendments, I support all 
three amendments.
    But I especially want to recognize my colleague, 
Congressman Connolly. He has been an outspoken member of this 
Congress against the North Koreans and their abuses, and his 
amendment today shows a great deal of sensitivity toward the 2 
million Korean families that are in those countries. So I thank 
you, and I thank my colleague for all his work.
    Chairman Royce. Thank you, Mr. Sires. Any other members 
seeking recognition?
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman, and I thank you and 
Mr. Engel for scheduling this markup. We talked on the floor 
and I really appreciate you scheduling it. I thank you for your 
kind words, Mr. Engel, and yours as well, Mr. Sires.
    This legislation, I think, is an important symbol by the 
Congress that we are not going to stand idly by and allow the 
depredations and the unspeakable brutality of a regime that 
would make George Orwell pause in the systematic suppression of 
free thought, of freedom of any kind, in creating this system, 
state system, that has so degraded the human spirit.
    And whether it is the development of a nuclear capability 
or the tact as you said, Mr. Chairman, that their own internal 
policies clearly reflect their external policies. And we have 
seen that where they have engaged in provocative activity, they 
have actually engaged in acts of terrorism and violence against 
their neighbor in South Korea and others, and we must speak 
out.
    They have actually engaged of course in the--we talk about 
human trafficking today, legislation, and I also 
enthusiastically support--but the North Korea regime has 
actually degraded itself to the point of abducting individuals 
as part of their policy. And this regime has to fall, and the 
United States, as I said, must be a beacon of hope and freedom 
for those who suffer under its oppression.
    You mentioned, Mr. Chairman, the gulags in North Korea. It 
is estimated that as many as 200,000 North Koreans are being 
held against their will in such gulags. This is something we 
thought was over with at the end of the Stalin period 60 years 
ago, and yet here it is, persistent in the 21st century.
    And so I think this legislation is important not only for 
what it does in tightening sanctions against that regime, but 
in sending the strongest message I hope in a unanimous 
bipartisan basis by this Congress that we will stand shoulder 
to shoulder with the people of North Korea in their aspirations 
and hopes for a freer future.
    Thank you, Mr. Chairman. And I also want to finally echo 
the comments of my friend, Mr. Rohrabacher of California. It is 
such a refreshing and hopeful experience to come to this 
committee and see how work is conducted in a professional and 
bipartisan manner. I think it is a model for other committees 
in the Congress, and I commend you and your staff, Mr. 
Chairman, a delight to work with. And you, Mr. Engel, and your 
staff, similarly, a delight to work with. Thank you for your 
bipartisan leadership.
    Chairman Royce. Thank you, Mr. Connolly. I think that when 
we speak about the Orwellian system there, the late Christopher 
Hitchens wrote a piece, ``Why Orwell Matters,'' but I think of 
all that he has written about totalitarian regimes. His story 
about his trip into North Korea is one of the most riveting you 
can read, and the nightmarish conditions there that people 
struggle under is a reminder that all of us in the 
international sphere have some personal responsibility to make 
certain that we do all that we can do to see that some modicum 
of civilization comes to an area where people are beaten down 
the way they are in North Korea.
    I think Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for bringing to the committee the North Korea Sanctions 
Enforcement Act of 2014. I think there is a very dangerous 
propensity both in Congress and at the State Department to 
think that North Korea is so bad, its violations of human 
rights so egregious, and its isolation makes it so that people 
are tempted to do very little or nothing to engage it and to 
seek to bring light and scrutiny to these horrific abuses that 
go on each and every day in the past.
    Mr. Chairman, I have chaired four hearings on North Korean 
human rights, and we have actually heard from women who escaped 
from North Korea into China, only to be trafficked once they 
got to China. And then when they were forcibly repatriated, 
they were put into the gulag system, which you called for an 
important study on, the 200,000-plus people who are tortured in 
those terrible gulags and many of them have died. When you try 
to escape North Korea it is considered treasonous, and as a 
direct result those individuals are often tortured to death.
    I also want to thank you for again requiring that there be 
a comprehensive study about the gulag system. Again, we need to 
do more. We need to expose more. No tyrannical regime need be 
forever, and that goes for North Korea as well.
    Finally, I want to again thank Dr. King for the good work 
he has done. He is a former staff director here who has served 
very admirably and very effectively, but very much in 
isolation, the Ambassador to North Korea on behalf of human 
rights with regards to that country. His job has to be as 
frustrating as it gets. He is not allowed to visit Pyongyang, 
but he does do a wonderful job trying to keep the issue front 
and center. And again, he sat right over here on the other side 
of the aisle as the democratic staff director for a whole lot 
of years, and let me express my deep respect for his work.
    And also we have got to keep obviously Kenneth Bae and his 
plight, the American who continues to be held in North Korea, 
and hopefully this kind of legislation will become an 
additional prod to effectuate his release. So again, thank you 
Mr. Chairman, and I yield back the balance.
    Chairman Royce. Thank you, Mr. Smith.
    We go now to Mr. Grayson of Florida.
    Mr. Grayson. Thank you, Mr. Chairman. This measure 
regarding the Afghan election, the second round, is an 
important one. On May 11, 2013, in Kabul, the U.S. Deputy 
Secretary of State William Burns said that ``a successful 
political transition is an essential prerequisite for 
sustainable security. It is vitally important that the election 
held next April be transparent, credible, and inclusive.''
    On July 9, 2013, the United States Senate unanimously 
agreed to a resolution stating that the Government of 
Afghanistan is urged ``to ensure transparent and credible 
Presidential and provincial elections in April 2014 by adhering 
to internationally accepted democratic standards, establishing 
a transparent electoral process, and ensuring security for 
voters and candidates.''
    In the first round of these elections, voter participation 
increased from approximately 35 percent in the 2009 
Presidential election to almost 60 percent in the election held 
in April, with the percentage of newly-registered female voters 
slightly increasing.
    The 2009 Afghan Presidential election experienced low 
female votes due to the insufficient number of female poll 
workers, and the U.N. Development Programme's Law and Order 
Trust Fund for Afghanistan approved the Ministry of Interior 
request to fund the hiring of 13,000 female election security 
officers in order to bolster female voter turnout for the 
recent Presidential election. Yet, 40 out of Afghanistan's 407 
districts still did not have female election staff due to 
security concerns.
    Twenty seven Afghans were killed on election day in 2009, 
and 17 members of the Afghan National Security Forces were 
killed over the course of nearly 300 insurgent attacks carried 
out during the election held a few weeks ago. After the 2009 
Presidential election, the Independent Electoral Commission 
ordered results from 210 polling places be invalidated, and 
later, after investigating 570 more polling stations 
quarantined by the IEC, found that all but 18 should be 
invalidated as well.
    In the recent election, 809,349 votes cast for the first 
Presidential candidate, 165,339 cast for the second 
Presidential candidate, and 39,555 cast for the third 
Presidential candidate during the June 2014 election have been 
invalidated for fraud.
    The Independent Electoral Commission has performed behind 
closed doors instead of in front of international monitors, and 
information from that Commission was leaked to some candidates 
and not others. In addition to that, on the evening prior to 
the 2014 Presidential election until 5 o'clock p.m. on election 
day, the Government of Afghanistan eliminated text messaging 
capabilities and this greatly inhibited monitoring efforts by 
international organizations. The members of the National 
Democratic Institute were killed in an attack on the Serena 
Hotel in Kabul on March 20, 2014, causing NDI to remove 
significant numbers of staff from Afghanistan and spreading 
fear among other monitors.
    It is very important to understand that while some 
candidates and some campaign staff have proclaimed that, should 
their opponents prevail, Afghanistan will be a less secure 
nation in which more civilians die, therefore creating a 
climate which is not conducive to democratic transition, our 
resolution seeks to address these problems and to solve these 
problems in meaningful ways.
    In advance of the Presidential election now to be held off 
the schedule for June 14th, we commend the Afghan people for 
completing the first round of a Presidential election while at 
the same time urging them toward a credible, inclusive, and 
transparent second round. Great lengths were taken in drafting 
this measure to ensure that it focused solely on the pending 
election, an event on which the House of Representatives has 
yet to comment.
    This measure does not delve into such issues as the 
appropriate number of coalition forces in Afghanistan. Instead, 
what it does simply is commend the Afghan people simply for 
completing the first round of elections, albeit in a somewhat 
flawed fashion, and supporting that the Commission is 
responsible for ensuring transparent and fair voting.
    We encourage the Government of Afghanistan to pursue 
measures that will increase female voter participation. We urge 
the Government of Afghanistan to take all necessary steps to 
combat fraud during the election, including preserving the text 
messaging capabilities that the visitors and observers find so 
essential to be able perform their functions properly. And we 
recognize the important role that Afghan National Security 
Forces, NATO forces, and currently, American forces have had 
and will have ensuring safety on voting day.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Grayson. We go now to Ms. 
Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman. I am in 
support of all three of the items that we are marking up today, 
but want to speak very briefly with connection to H.R. 1771, 
the North Korean Sanctions Enforcement Act. And like my 
colleagues, thank you and our ranking member for your 
leadership on this, and especially your remarks that opened up 
this conversation today.
    Much has been said very eloquently about the human rights 
violations that are occurring in North Korea, but specifically, 
the fact that strategic patience, the time for that has come 
and gone. We can talk about the threat that North Korea has to 
the region that it is one of the primary causes of instability 
within the Asia Pacific region.
    I was there in Japan, South Korea, and China last month, 
and heard in each of those three places, both from our military 
as well as folks on the ground there that the threat that North 
Korea continues to provide is one of the most destabilizing 
factors, inhibiting economic growth and opportunity in the 
region. But this is also something that hits very close to 
home.
    You mentioned the intercontinental ballistic missile tests, 
the continued growing capabilities of North Korea, and how 
every time we go through this cycle of threats and then some 
kind of talk of negotiations and finding a peaceful path 
through this, which ideally is what we all would like, North 
Korea's capabilities continue to grow.
    It is a great disservice to our country when North Korea 
makes threats that we have people here at home saying they are 
not close enough or their threats are not serious or they are 
not actually threatening the United States. They are actually 
threatening us very directly. States like mine in Hawaii do 
fall within the range of the ICBMs that they are developing.
    So when we talk about the need for stronger sanctions, the 
need to look back to the hard currency sanctions that have 
worked in the past, this is something that is very real. And it 
is very real to American citizens, it is very real to the 
military assets that we have in our own country, and is 
critical for our own national security and the safety of our 
people that we take this seriously and understand that this is 
a threat that is urgent today, not something that we can 
continue to wait and be patient on to deal with in the future.
    So I appreciate your leadership and your hard and 
thoughtful work on this, and on behalf of the people of my 
State of Hawaii, extend my gratitude. Thank you very much.
    Chairman Royce. Thank you, Ms. Gabbard. We are going to go 
now to Mr. Ted Poe, Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for bringing 
all of these bills before the committee today. I would like to 
speak specifically on H.R. 4449, the Trafficking Prevention 
Act, by Mr. Maloney.
    This requires training of State Department officials, and I 
wanted to emphasize the importance of the training to recognize 
especially overseas victims that are trafficked into the United 
States, specifically minor children: Not only that we recognize 
who those children are, but we also need to have training. 
State Department officials need to have training on recognizing 
the problem of the demand, whether that demand occurs by 
Americans or someone else overseas for this scourge of human 
trafficking.
    So this is a good piece of legislation. Education and 
training on human trafficking is critical for us on a worldwide 
basis to stop this criminal conduct, this scourge, but it also 
includes training to recognize the problem and the issue of the 
demand sector. And with that I will yield back.
    Chairman Royce. Thank you, Mr. Poe. We go now Mr. Joaquin 
Castro of Texas.
    Mr. Castro. Thank you, Mr. Chairman, and I want to thank 
you and Ranking Member Engel for including my amendment to H.R. 
1771 in the en bloc package.
    Recently a U.N. panel recommended that the international 
community must significantly improve enforcement of existing 
resolutions particularly relating to cargo inspections at air 
and sea ports. Recognizing that there are enforcement gaps, my 
amendment urges the United States to strengthen the capacity of 
responsible nations to monitor and intercept shipments to and 
from North Korea that provide them cash as well as technology 
and material for its nuclear and ballistic missiles program.
    I encourage my colleagues of course to support the 
amendment and I thank you all for your support. I yield back.
    Chairman Royce. Thank you, Mr. Castro. Hearing no further 
requests for recognition, the question occurs on the items 
considered en bloc. All those in favor say aye.
    All those opposed, no.
    In the opinion of the Chair the ayes have it. The measures 
are considered en bloc. That would be H.R. 1771<greek-l>4573 
(sic) deg., H.R. 4449<greek-l>4587 (sic) deg., and House 
Resolution 600. They are agreed to as amended, and without 
objection each of the measures as amended is ordered favorably 
reported as a single amendment in the nature of a substitute. 
Staff is directed to make any technical and conforming changes, 
and that concludes business for today.
    I want to thank our ranking member, Eliot Engel, and all of 
our committee members for their contributions and for their 
assistance, and this committee is adjourned.
    [Whereupon, at 10:45 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
